  Questionable Contract Language Related to Interest Payable
                           Under
                 Kiewit Contract C069-93228
Sounder Preventive Maintenance Track Replacement and Related
                  Improvements, Seattle, WA
                            And
                 Kiewit Contract C069-06834
   South End Track and Related Improvements, Seattle, WA

                 Audit Report No. 508-2009


                     December 2, 2010




                     Audit Report Issued By:

         NATIONAL RAILROAD PASSENGER CORPORATION
               OFFICE OF INSPECTOR GENERAL
                      10 G STREET, N.E.
                   WASHINGTON, DC 20002
                                                                                David R. Warren, Assistant Inspector General for
Date       December 2, 2010                                           From
                                                                                Audit

 To        Donald A. Stadtler Jr., Chief Financial Officer       Department     Office of Inspector General

                                                                                Questionable Retainage Language in Kiewit
                                                                                Contracts for Sounder Track Replacement and
                                                                    Subject     Improvements, and South End Track and Related
                                                                                Improvements, Seattle, WA
                                                                                Final Audit Report 508-2009
                                                                                Jeff Martin, Chief Logistics Officer
                                                                           cc
                                                                                Jessica Scritchfield, Internal Controls Officer

       Enclosed is our final report on issues that came to our attention while we were conducting the
       audits of Kiewit Contract C069-93228 Sounder Preventive Maintenance Track Replacement and
       Related Improvements in Seattle, WA and Kiewit Contract C069-06834 South End Track and
       Related Improvements in Seattle, WA. Our objective for the two audits was to determine the
       accuracy and acceptability of costs billed by Kiewit Pacific Co. The audit results related to
       questioned costs and unsupported costs are included in our final report 504-2009. This report
       contains information concerning questionable retainage contract language and the Contractor’s
       Cost of Living Adjustment rates that          the Bureau of Labor Statistics Consumer Price Index
       rate. 1

       Management’s response from the Amtrak Chief Financial Officer to our draft report is in the
       attached Appendix. Management agreed with our three draft recommendations and provided
       additional comments on our finding and recommendations. In this final report, we modified our
       recommendations to address Management comments.

       Thank you for your cooperation during the course of this audit. If you have any questions, you
       can contact See See Young, Senior Director, at (213) 683-6939 or by email at
       youngse@amtrak.com, or me at (202) 906-4742 or by email at david.warren@amtrak.com.




       ___________________________________
       David R. Warren
       Assistant Inspector General for Audit


       Attachment




       1
           We redacted certain proprietary information from this report.
        Kiewit Contract C069-93228 Sounder PM Track Replacement and Improvements
           Kiewit Contract C069-06834 South End Track and Related Improvements
                               Final Audit Report # 508-2009



                                     EXECUTIVE SUMMARY

                                 Amtrak’s Department of Procurement and Materials Management
        WHY WE DID
                                 (Procurement) requested the Office of Inspector General (OIG) to
       THESE AUDITS
                                 perform post-award audits of Contracts C069-93228 and C069-
                                 06834 for work performed in Seattle, WA. Both contracts require
     During our audits of        Amtrak to pay Kiewit reimbursable costs plus fee up to the
     Contracts C 069-            Guaranteed Maximum Price (GMP). The contracts allow Amtrak to
     93228 and C069-             withhold 10 percent of progress payments (generally referred to as
     06834 to determine          retainage) made to Kiewit on a cost incurred basis. The retainage
     the accuracy and            funds to be withheld until the work has been satisfactorily completed
     acceptability of costs      and the OIG audit findings, if any, have been resolved. Kiewit
     billed by Kiewit            billed a total of $4,584,491 for Contract C069-93228 and $4,213,991
     Pacific Co (Kiewit),
                                 for Contract C069-06834. These amounts are within the contracts’
     we identified issues
                                 specified GMPs. For Contract C069-93228, Amtrak has paid
     pertaining to
     questionable contract
                                 $4,126,042 and withheld retainage funds totaling $458,449. 2 For
     retainage language          Contract C069-06834, Amtrak has paid $3,792,592 and withheld
     and an opportunity to       retainage funds totaling $421,399. 3
     improve contract
     negotiation practices. We identified questionable retainage
                            language in both contracts. The language                       Contracts contain
                                                                                           questionable
                            states in the event the retainage is not paid
                                                                                           retainage language
to the Contractor within 90 calendar days following proper invoicing by
                                                                                           that may potentially
the Contractor and receipt by Amtrak, both parties “shall agree to seek a                  result in
mutually acceptable means of compensating the Contractor for the ‘time                     unreasonable
value of money’ associated with extended and/or unwarranted                                burden and
withholding of retainage from the Contractor without suitable cause.”                      unnecessary costs
One of the mutually acceptable means stated in the contracts allows the                    to Amtrak.
Contractor to be paid interest on retainage not later reduced by audit
findings. The OIG was not advised by Procurement about the subject                         language, before its
inclusion in the contracts.

It is a common construction contracting practice for the owner to withhold a certain percentage
of compensation from the contractor in retainage as a means to motivate the contractor to
complete the work in a timely and satisfactory manner. Both contracts contain retainage
language that is consistent with this good business practice. However, Amtrak added a note to

2
 While processing this final report, we found that Amtrak had released nearly all of the retainage back to Kiewit
except for the net audit adjustment credit amounts of $99,531 related to Contract 069-93228 and $2,147 related to
Contract 069-06834.
3
    See Note 1.


                                                         i
     Kiewit Contract C069-93228 Sounder PM Track Replacement and Improvements
        Kiewit Contract C069-06834 South End Track and Related Improvements
                            Final Audit Report # 508-2009

both contracts that includes questionable contract retainage language that may offset the benefits
of withholding retainage. The 90 calendar days’ timeframe included in the contract places a
burden on Amtrak that may result in hasty Amtrak decisions. Further, the retainage language
may potentially result in unnecessary costs to Amtrak.

Completion of the audit, to a large extent, is dependent on the timeliness and responsiveness of
the Contractor in submitting adequate and appropriate documents to support its costs billed to
Amtrak. The inclusion of the subject language in only Kiewit contracts presents an appearance
that Amtrak accorded preferential treatment to the Contractor. Procurement management
indicated that the subject interest language was included in only the two Kiewit contracts to
induce the Contractor to do business with Amtrak because the Seattle Facility Infrastructure
Improvement project underwent a number of changes, including project scope reduction, as a
result of Amtrak’s funding constraints.

Further, the interest payment clause may potentially impose limits on the OIG’s responsibilities.
Amtrak’s General Provisions for the contracts clearly state that nothing in the contract shall limit
the Amtrak OIG’s rights, obligations, authority, or responsibilities. Further, the Government
Auditing Standards provide the example that “unreasonable restrictions on time allowed to
complete an audit or issue the report” could impair the auditor’s independence; thereby,
adversely impacting the audit.

We recommend that Amtrak

1. As a standard practice, exclude any contract language that allows paying interest payable to a
   Contractor on retainage and, if such language is included, formally justify its inclusion that it
   is in Amtrak’s best interest and does not impair auditor independence.

2. Review all existing contracts for similar retainage language and ensure that Amtrak does not
   agree to the payment of interest to the Contractor on retainage.

3. Avoid contract language that could impair the auditor’s responsibilities.

Amtrak Chief Financial Officer (CFO) responded to our draft audit report and agreed with our
three draft recommendations. The CFO also provided additional comments on our draft, which
are reflected in this final report.

In response to our draft recommendation to exclude contract language that allows compensation
of interest payable, the CFO stated that as standard practice Amtrak should not include contract
language that allows compensation of interest payable to the Contractor on retainage. He also
stated that Management believes that in very specific and limited circumstances, the use of
contract language allowing compensation of interest payable may be in the best interest of
Amtrak. We recognize there may be limited circumstances where allowing compensation of
interest may be in the company’s best interest. Therefore, our final recommendation states that
Management should as a standard practice exclude any contract language that allows paying
interest payable to a Contractor on retainage and, if such language is included, formally justify

                                                 ii
     Kiewit Contract C069-93228 Sounder PM Track Replacement and Improvements
        Kiewit Contract C069-06834 South End Track and Related Improvements
                            Final Audit Report # 508-2009

its inclusion that it is in Amtrak’s best interest and does not impair auditor independence. In
response to our draft recommendation to review all existing contracts for similar retainage
language, the CFO stated that Management had reviewed all existing contracts and found no
contracts under Procurement’s purview to contain interest payable language. In response to our
last draft recommendation, the CFO stated the Amtrak Chief Logistics Officer will issue
guidance to Procurement personnel reminding them of the need to avoid contract language that
could impair the independence and objectivity of OIG and other external auditors. The guidance
was issued to all Procurement personnel on November 19, 2010. Considering this action, our
final recommendations states that Amtrak should avoid contract language that could impair the
auditor’s responsibilities.




                                              iii
       Kiewit Contract C069-93228 Sounder PM Track Replacement and Improvements
          Kiewit Contract C069-06834 South End Track and Related Improvements
                              Final Audit Report # 508-2009



                                            TABLE OF CONTENTS

BACKGROUND ............................................................................................................................1

RESULTS OF AUDIT...................................................................................................................2

  Finding: Contract language may unnecessarily increase costs and impair auditor’s

  independence.................................................................................................................................2

RECOMMENDATIONS...............................................................................................................3

MANAGEMENT’S COMMENTS AND OIG RESPONSE ......................................................4

OBSERVATION

  Observation: Kiewit cost of living adjustment rates                                        the BLS CPI rate…………….......4

EXHIBIT

  Scope and Methodology..............................................................................................................6

APPENDIX

  Management’s Response ............................................................................................................7
      Kiewit Contract C069-93228 Sounder PM Track Replacement and Improvements
         Kiewit Contract C069-06834 South End Track and Related Improvements
                             Final Audit Report # 508-2009



                                           BACKGROUND

On May 21, 2008, Amtrak entered into three separate contracts with Kiewit Pacific Co. (Kiewit
or “Contractor”) to move forward with the completion of the Seattle Facility Infrastructure
Improvement Project in Seattle, Washington. The three contracts are listed below:

1. Contract C076-66826 was for the Design/Build Improvements at Amtrak's Seattle
   Maintenance Facility for a Guaranteed Maximum Price (GMP) of $2,525,000.
2. Contract C069-93228 was for the Sounder Preventative Maintenance Track Replacement
   and Related Improvements in Seattle, WA, for a GMP of $4,676,367.
3. Contract C069-06834 was for the South End Track and Related Improvements in Seattle,
   WA, for a GMP of $6,500,000.

All three contracts are cost reimbursable plus fee contracts up to the GMP. In addition, each of
the contracts includes the possibility of a downward revision provision to the amount billed
based on Amtrak Office of Inspector General (OIG) audit findings. Also, the contracts allow
Amtrak and Kiewit to seek a “mutually negotiated resolution” to the Amtrak OIG audit findings.

Amtrak’s Department of Procurement and Materials Management (Procurement) requested the
OIG to perform post award audits of the three contracts. This report contains the OIG’s finding
related to questionable contract language and the Contractor’s Cost of Living Adjustment
(COLA) rates. The audit findings on questioned costs and unsupported costs for contracts
related to Sounder Preventive Maintenance Track Replacement and Related Improvements and
the South End Track and Related Improvements are covered in a separate Audit Report 504-
2009.

Kiewit billed Amtrak $4,584,491 for                                                 Kiewit      Amtrak        Retainage
services performed during the period from              Contract      Contract       Billed       Paid           Total
                                                       Number         GMP            Total       Total        Withheld
January 2, 2008 through February 15 2009
for Contract C069-93228 and $4,213,991                C069-93228 $    4,676,367   $ 4,584,491 $ 4,126,042 $      458,449
for services performed during the period              C069-06834 $    6,500,000     4,213,991   3,792,592        421,399
from May 5, 2008 through July 19, 2009                                            $ 8,798,482 $ 7,918,634 $      879,848
for Contract C069-06834.

As shown in the table above, 4 Kiewit’s billing totals for the two contracts are within the
contracts’ GMPs.

4
 While processing this final report, we found that Amtrak had released nearly all of the retainage back to Kiewit
except for the net audit adjustment credit amounts of $99,531 related to Contract 069-93228 and $2,147 related to
Contract 069-06834.




                                                      Page 1
     Kiewit Contract C069-93228 Sounder PM Track Replacement and Improvements
        Kiewit Contract C069-06834 South End Track and Related Improvements
                            Final Audit Report # 508-2009



                                  RESULTS OF AUDIT

Finding: Contract language may unnecessarily increase costs and impair auditor’s
independence.

In our review of Contracts C069-93228 and C069-06834, we identified questionable retainage
language in both contracts that may potentially result in unreasonable burden and unnecessary
costs to Amtrak and impair the auditor’s independence.

It is a common construction contracting practice for the owner to withhold a certain percentage
of compensation (generally referred to as retainage) from the contractor as a means to motivate
the contractor to complete the work in a timely and satisfactory manner. The 2nd paragraphs of
the Compensation Sections of both contracts contain a retainage clause. The clause allows
Amtrak to withhold 10 percent of the progress payments to ensure satisfactory completion of the
work and disposition of any audit findings. Amtrak also added a Note 2 to the compensation
sections of both contracts. Note 2 states that in the event the retainage is not paid to the
Contractor within 90 calendar days following proper invoicing by the Contractor and receipt by
Amtrak, both parties “shall agree to seek a mutually acceptable means of compensating the
Contractor for the ‘time value of money’ associated with extended and/or unwarranted
withholding of retainage from the Contractor without suitable cause.” One of the listed
“mutually acceptable means” is paying interest to the Contractor on retainage not eventually
applied to resolve audit findings. This was to be paid at a rate of six percent or at the Wall Street
Journal Published Prime Rate, whichever is lower. The OIG was not advised by Procurement
about the subject language, before its inclusion in the contracts.

The inclusion of the notes the contracts may offset the benefits of withholding retainage until
satisfactory completion of all work and disposition of OIG audit findings. The 90 calendar days’
timeframe included in the contract note places a burden on Amtrak that may result in hasty
Amtrak decisions. Further, the subject retainage language may potentially result in unnecessary
costs to Amtrak and impair auditor’s independence.

Section 30.6 (Right to Audit) of the Amtrak General Provisions for Design/Build Contracts,
revised May 21, 2008 of both Kiewit Contracts states:

     Nothing in this Contract shall be construed to limit the rights, obligations, authority, or
     responsibilities of Amtrak's Office of the Inspector General pursuant to the Inspector
     General Act of 1978, as amended, including the right to seek information by subpoena.

The OIG is required to conduct audits in accordance with professional standards. Section 3.10 of
the Government Auditing Standards specifically states that “audit organizations must be free




                                               Page 2
     Kiewit Contract C069-93228 Sounder PM Track Replacement and Improvements
        Kiewit Contract C069-06834 South End Track and Related Improvements
                            Final Audit Report # 508-2009

from external impairments to independence.” The section gives the example that “unreasonable
restrictions on time allowed to complete an audit or issue the report” could impair the auditor’s
independence; thereby, adversely impacting the audit.

The contract interest language related to retainage could have placed time restrictions on our
audit, since it included a 90-calendar-day timeframe for completing our audit once the bills were
received by Amtrak. Such a requirement could potentially limit our auditor’s ability to maintain
independence and objectivity. However, the subject retainage language in the case of these
contracts did not affect our audits. Also, the timeliness of the audit completion, to a large extent,
is dependent on the timeliness and responsiveness of the Contractor in submitting adequate and
appropriate data and records to support its billed costs. Further, by only including the interest
retainage language in the Kiewit contracts may present an appearance that Amtrak accorded
preferential treatment to the Contractor.

Procurement officials indicated that the interest paid to Kiewit related to retainage was not a
standard practice. They further stated that it was included in the two Kiewit contracts to induce
the Contractor to do business with Amtrak. They felt this inducement was because the Seattle
Facility Infrastructure Improvement project underwent a number of changes, including
significant project scope reduction, due to Amtrak’s funding constraints.


                                RECOMMENDATIONS

We recommend that Amtrak Management take the following actions:

1. As a standard practice, exclude any contract language that allows paying interest payable to a
   Contractor on retainage and, if such language is included, formally justify its inclusion that it
   is in Amtrak’s best interest and does not impair auditor independence.

2. Review all existing contracts for similar retainage language and ensure that Amtrak does not
   agree to the payment of interest to the Contractor on retainage.

3. Avoid contract language that could impair the auditor’s responsibilities.




                                               Page 3
     Kiewit Contract C069-93228 Sounder PM Track Replacement and Improvements
        Kiewit Contract C069-06834 South End Track and Related Improvements
                            Final Audit Report # 508-2009



       MANAGEMENT’S COMMENTS AND OIG RESPONSE
Amtrak Chief Financial Officer (CFO) responded to our draft audit report and agreed with our
three draft recommendations. The CFO also provided additional comments on our draft, which
are reflected in this final report.

In response to our draft recommendation to exclude contract language that allows compensation
of interest payable, the CFO stated that as standard practice Amtrak should not include contract
language that allows compensation of interest payable to the Contractor on retainage. He also
stated that Management believes that in very specific and limited circumstances, the use of
contract language allowing compensation of interest payable may be in the best interest of
Amtrak. We recognize there may be limited circumstances where allowing compensation of
interest may be in the company’s best interest. Therefore, our final recommendation states that
Management should as a standard practice exclude any contract language that allows paying
interest payable to a Contractor on retainage and, if such language is included, formally justify
its inclusion that it is in Amtrak’s best interest and does not impair auditor independence. In
response to our draft recommendation to review all existing contracts for similar retainage
language, the CFO stated that Management had reviewed all existing contracts and found no
contracts under Procurement’s purview to contain interest payable language. In response to our
last draft recommendation, the CFO stated the Amtrak Chief Logistics Officer will issue
guidance to Procurement personnel reminding them of the need to avoid contract language that
could impair the independence and objectivity of OIG and other external auditors. The guidance
was issued to all Procurement personnel on November 19, 2010. Considering this action, our
final recommendations states that Amtrak should avoid contract language that could impair the
auditor’s responsibilities.


                                    OBSERVATION

Observation: Kiewit’s cost of living adjustment rates               the BLS CPI rate.

We determined that for Contract C069-93228, Kiewit paid certain employees cost of living
adjustment (COLA) payments at effective rates of    and      in 2008. For Contract C069-
06834, Kiewit paid a staff supervision employee COLA payments at an effective rate of in
2008. The COLA payments for both contracts were applied to Kiewit’s labor costs charged
under the contracts.

Kiewit submitted company issued memoranda to support its COLA rates. However, in
comparing Kiewit's effective rate to the Bureau of Labor Statistics (BLS) Consumer Price Index
(CPI) rate for the Seattle-Tacoma-Bremerton, WA area (which covers the Amtrak jobsite),



                                             Page 4
     Kiewit Contract C069-93228 Sounder PM Track Replacement and Improvements
        Kiewit Contract C069-06834 South End Track and Related Improvements
                            Final Audit Report # 508-2009

Kiewit's rate         the average BLS CPI rate of         for 2008. Based on Kiewit’s invoices
submitted to Amtrak for both contracts, the inclusion of COLA payments were not evident as the
Contractor’s summary labor documents that were included with the invoices did not detail the
labor charges.

We recognize that the Contractor has the right to provide cost of living adjustments to its
employees as an established compensation policy. However, we suggest that for future cost
reimbursable contracts, Amtrak obtain an adequate understanding of the Contractor’s COLA
policy and practices and factor the information obtained in its contract negotiation decisions.
This will assist Amtrak in controlling contract costs.


Audit Staff:

Trig Alonso
Anil Gunaratne
See See Young




                                            Page 5
     Kiewit Contract C069-93228 Sounder PM Track Replacement and Improvements
        Kiewit Contract C069-06834 South End Track and Related Improvements
                            Final Audit Report # 508-2009



                                     EXHIBIT
                               Scope and Methodology

We conducted this performance audit in accordance with the generally accepted government
auditing standards (GAGAS). These standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. We conducted
the reviews of Contract C069-93228 between November 2008 and July 2009 and Contract C069-
06834 between May 2009 and December 2009. We used the following scope and methodology
in conducting these reviews.

Scope

The audit scope encompassed actual, estimated, and other financial cost information provided by
Kiewit to support the billed costs for nine invoices covering the period from January 2, 2008
through February 15, 2009 for Contact C069-93228 and 13 invoices covering the period from
May 5, 2008 through July 19, 2009 for Contract C069-06834. We reviewed Kiewit’s labor,
equipment, material, subcontractor, profit, and overhead costs. From these major cost categories,
we judgmentally selected samples for detailed cost review and verification. We also obtained
the technical opinion from Amtrak Engineering on the reasonableness of Kiewit owned
equipment, labor, rental equipment, and subcontract costs. For Amtrak payments made to
Kiewit, we obtained and used the payment data provided by Amtrak Finance. As we did not
perform any testing on the payment data, we do not attest to the reliability, consistency, and
currency of such data.

Methodology

Our methodology included: the review of contracts, Kiewit’s job cost records and other
documents submitted in support of the costs billed; the performance of attribute testing and data
analysis using Audit Command Language and Microsoft Excel; and the discussions of relevant
matters with Amtrak project personnel and Kiewit representatives. We also performed other
work as deemed necessary to complete the audit.




                                             Page 6
 Kiewit Contract C069-93228 Sounder PM Track Replacement and Improvements
    Kiewit Contract C069-06834 South End Track and Related Improvements
                        Final Audit Report # 508-2009


                                 APPENDIX
                             Management’s Response
                         NATIONAL RAILROAD PASSENGER CORPORATION
                         th                th
                       30 Street Station, 5 Floor Southeast, Philadelphia, PA 19104




Memo

     Date   September 30, 2010                                  From    DJ Stadtler Chief Financial Officer

      To    Dominic Pinto, Acting AIG, Audits            Department     Finance
                                                              Subject   Inappropriate Retainage Language in
                                                                        Kiewit Contracts for Sounder Track
                                                                        Replacement and Improvements, and
                                                                        South End Track and Related
                                                                        Improvements, Seattle, WA
                                                                        Report 508-2009

                                                                   cc   John Martin, Chief Logistics Officer
                                                                        Gary Eckenrode, Sr. Director -
                                                                        Procurement and Materials
                                                                        Management



 This letter is in response to Office of Inspector General (“OIG”) audit 508-2009 “Incurred
 Cost Audit- Inappropriate Contract Language Related to Interest Payable Kiewit Contract
 C069-93228 Sounder Preventive Maintenance Track Replacement and Related
 Improvements, Seattle WA and Kiewit Contract C069-06834 South End Track and Related
 Improvements, Seattle Washington”, dated August 18, 2010.

 Background

 At the time that the Kiewit contracts were awarded, Amtrak had been experiencing a
 shortage in available funding. The lack of available funding resulted in the need to contract
 for this service via the issuance of numerous Letters of Agreement and individual
 contracts. The Contractor was very cognizant of the funding challenges facing not only this
 project, but also for Amtrak overall, which had been well publicized in the media. There




                                               Page 7
Kiewit Contract C069-93228 Sounder PM Track Replacement and Improvements
   Kiewit Contract C069-06834 South End Track and Related Improvements
                       Final Audit Report # 508-2009

OIG Report 508-2009
September 30, 2010
Page 2

were extensive negotiations between Amtrak and the Contractor resulting in three separate
agreements. In addition, due to the restrictive availability of cash flow during this time,
there were multiple changes in the scope of work and fluctuations related to the project
budget.

Due to the unique nature of Amtrak’s financial constraints and the nature of the work
required, management within Procurement made the business decision to select Kiewit via
a sole-source agreement due to their solid performance record and the belief that they
could effectively work within the limitations and constraints that existed in the
environment at the time. It is also noted that because Amtrak had audited the contractor on
prior projects, they had prior experience understanding the requirements of the IG audit
process.

Recommendation 1: Amtrak should exclude any contract language that allows
compensation of interest payable to the Contractor on retainage in all future contracts.

Management concurs that as standard practice, Amtrak should not include any contract
language that allows compensation of interest payable to the Contractor on retainage.

The inclusion of interest payable language in this case represented an isolated incident due
to the unique circumstances related to Amtrak’s’ financial constraints at the time of
contract award. The interest insertion represented an agreement between Amtrak and the
Contractor to allay the Contractor’s concerns in this area about Amtrak’s overall ability to
pay its obligations in the future and to be reasonable, fair and equitable under the
circumstances. Any interest on monies due the Contractor, applied only to mutually
agreed-upon, unwarranted delays in the payment of bona fide amounts due the Contractor.
In addition, it is noted that the interest rate used was obtained from a third party reputable
source, The Wall Street Journal, was capped at 6 percent and subject to downward revision
only. It is further noted that the prime rate of interest at the time of contract award was
significantly lower. Management contends that the rate and method by which the interest
rate was determined was both fair and equitable to Amtrak and the Contractor. It is further
noted that no interest was paid to the contractor on retainage owed.

At a minimum without this interest note included, the Contractor would likely have added
this risk of delayed payment into its pricing to Amtrak. Furthermore, in being practical
about this situation amounts due including retainage is money earned by the Contractor
and a liability to Amtrak. A Contractor who is unreasonably delayed in the payment of
their retainage or any other monies due without just cause could seek to litigate the matter
and would likely seek additional damages (interest, punitive or otherwise) as determined



                                         Page 8
Kiewit Contract C069-93228 Sounder PM Track Replacement and Improvements
   Kiewit Contract C069-06834 South End Track and Related Improvements
                       Final Audit Report # 508-2009

OIG Report 508-2009
September 30, 2010
Page 3

by the Court. Therefore, under the circumstances that existed at the time, the inclusion of
the interest note in these Contracts gave the Contractor at least some sense of assurance
that the retainage or other monies due them would not be delayed due to any further
deterioration in Amtrak’s financial condition.

Management believes that in very specific and limited circumstances, the use of contract
language allowing compensation of interest payable may be in the best interest of the
company.

Recommendation 2: Review all existing contracts for similar retainage language and
ensure that Amtrak does not agree to the payment of interest to the Contractor on retainage.

Management concurs, and has reviewed existing contracts. At this time, no contracts
under Procurement’s purview contain interest payable language.

Recommendation 3: Consult with the OIG before inclusion of any contract language that
could have a potential impact on the OIG’s responsibilities.

Management concurs. While management has the authority to incorporate business
decisions that it deems appropriate in regard to contract awards without a prior
consultation with the OIG, as courtesy any language that may specifically affect the OIG
should be vetted through the OIG before inclusion in contracts. The Chief Logistics
Officer will issue guidance by

October 31, 2010 to Procurement personnel reminding them of the need to avoid contract
language that could impair the independence and objectivity of external auditors such as
the OIG. Management does not believe that the inclusion of the retainage language in this
case had such an effect. The 90-day interest payable note represented an acceptable
agreement between the contractor and Amtrak under the circumstances that existed at the
time. The interest note did not provide the Contractor any additional benefits beyond what
any other Contractor would be entitled to in the event Amtrak arbitrarily withheld payment
from the Contractor. It is also noted that no interest was paid to the Contractor.

Other Observations

Observation: Kiewit cost of living adjustment rates            the BLS CPI rate.

The pay increases to certain Contractor management employees assigned to these Amtrak
projects were found to be consistent with the Contractor’s overall payroll, including OIG



                                         Page 9
Kiewit Contract C069-93228 Sounder PM Track Replacement and Improvements
   Kiewit Contract C069-06834 South End Track and Related Improvements
                       Final Audit Report # 508-2009

Report 508-2009
September 30, 2010
Page 4

increases to employees that were not assigned to Amtrak projects. In addition, the pay
increases granted were not limited to the Amtrak contracts alone and were not
unreasonable or excessive in nature.

While the increases were not fully in line with COLA for the area, the OIG did not opine
on whether the pay increases involved catch-up, talent retention or any other factors that
may have accounted for the higher COLA rates.

Procurement further asserts that had contractor personnel assigned to Amtrak projects been
limited to the area COLA, that it would not have been beneficial to Amtrak. In fact, this
could actually deter higher caliber Contractor staff from Amtrak projects, as those working
non-Amtrak projects for the same Contractor would be paid more than staff assigned to
comparable Amtrak projects with COLA limitations.




                                        Page 10
